// i
rJ: A? J
r ■

i. ■

No.

ORIQMAJ
Supra:;io Court, U.S.
FILED

ma&:oi

im

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)

vs.

Mark J-

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

o -p /Vf

Uol-fed SrWo

l\^ GrcmV

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

u

oo cx v

(Your Name)

C/o n?Ol K) uo
(Address)

MACrrv\ \

C~>cx> <^30 STt

(City, State, Zip Code)

Igt zl “7 4 5 2-^
1RU 4 81 USO
(Phone Number)
ti

QUESTIONS PRESENTED

1.

In Earle v McVeigh, 91 US 503,23 L Ed 398, it says “ Every person is entitled to an
opportunity to be heard in a court of law upon every question involving his rights or
interests, before he is affected by any judicial decision on the question.” Why is the
Petitioner not being heard as of yet?

2.

The Petitioner would like to know the reason why taxes were being deducted from his
pay check, Secondly is the Petitioner getting the correct pay per hour as well as overtime,
being the employee started work as a longshoremen in or around November 1996?

LIST OF PARTIES

All parties do not appear in the caption of the case on the cover page. A list of all parties to the
proceeding in the court whose judgement is the subject of this petition is as follows:

Mark J. Baker

RELATED CASES

No.’s 20-12237, 20-12125, 20-12149,20-12024,20-12234, & 20-12126

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3,4,5

STATEMENT OF THE CASE................................................................

5,6,7

REASONS FOR GRANTING THE WRIT............................................
iCONCLUSION

8
9

INDEX TO APPENDICES
APPENDIX A

Order Denying to proceed in forma pauperis

APPENDIX B

Order for filing a Certificate of Interested Persons

APPENDIX C

Order denying Plaintiff to proceed in Forma Pauperis

APPENDIX D

Order not to Proceed in forma pauperis

APPENDIX E

Order of Designation of Transcripts

APPENDIX F

Order for filing a Certificate of Interested Persons

APPENDIX G

Order for filing a Certificate of Interested Persons

APPENDIX H

Order for filing a Certificate of Interested Persons

APPENDIX I

Transcript Order Information

APPENDIX J

Check Stubs

{

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES

Miranda v. Arizona, 384 U.S. 4 Article 1, Section X

5

Norton vs Shelby County................................................

.7

V

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

1

4_to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

o

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided mv case
. 2Lo 2.0
was Dec7,

[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1. Article 1, Section 8, Clause 1.
“ The Congress shall have power to lay and Collect Taxes, Duties, Imposts and Excises,
to pay the Debts and provide for the common Defense and General Welfare of the United
States; but all Duties, Imposts and Excises shall be uniform throughout the United States;
The Constitution for the United States of America.

2. Internal Revenue Code, Title 26, Chapter 1, Part 31, Section 3402(p)-1 (26CFR31.3402)
provides that the I.R.S. form W-4 is a voluntary withholding agreement between an
employer and an employee. There is no law requiring a worker or employee to complete
the I.R.S. Form W-4.

3. Izner vs. McCumber
“income is” SC of the U.S., the gain from capital derived from labor contract the services
of laborers. It’s the money that the Corporations make not the Natural Person.

4. 31 U.S. Code 3124 Exemption from taxation (a) Stocks and Obligations of the United
States Government are exempt from taxation by a State or Political subdivision of a State.
The exemption applies to each form of taxation that would require the obligation, the
interest on the obligation, or both, to be considered in computing tax.
5. “ Our tax system is based on individual self-assessment and voluntary compliance”Mortimer Caplin, Internal Revenue Audit Manual (1976).

6.

The Treaty of Peace and Friendship of 1836 A.D.
Article 20 and Article 23

3.

7. The Constitution of the United States Article 6

Cynthia I. Mills, IRS Disclosure Officer 1995
Earle vs McVeigh
Izner vs McCumber

The Universal Declaration of Human Rights 1948
Article 23,1-3
Article 3,5
Article 7

i

Internal Revenue Audit Manual (1976)

31 US Code 3124
Internal Revenue Code Title 26 ch.l Part 31 Section 3402 (P)-l (26 CFR31.3402)

U.S. Constitution Article 1, Section 8, Clause 1
U.S. Constitution Article 6
Treaty of Peace and Friendship Between the United States and Morocco 1836
Article 1 Section 10 U.S. Constitution

4.

STATEMENT OF THE CASE

On or around December 16,2020, Elizabeth L. Branch DENIED the Petitioner’s Affidavit
for leave to proceed in forma pauperis. “Where rights secured by the Constitution are
involved, there can be no rule making or legislation, which would abrogate them.”
Miranda v. Arizona, 384 U.S. 4

Article 1, Section X
“All debts shall be payable in gold or silver coin”

Amendment V
“ No Person shall be deprived of due process of law”

I Affirm, for the Record, that I do not have, or possess, any gold or silver coins, as prescribed by
United States Constitution Law, which is the lawful money to pay the restricting demands,
conditionally commanded by Employees and Contractors of the Court. The said restrictions
(unconstitutional) are arbitrarily (hindering Due Process) and imposed for processing these
Documents, as stipulated in the United States Constitution noted above. Therefore, I submit this
Writ “In Forma Pauperis”, being an enjoyment and exercise of my unconditional and

5.

Constitutionally - Secured Rights (and not a feudal - fee - burdened privilege) to timely and
speedily enforce Due Process of Law, as noted above. Elizabeth Branch’s demand for a “Financial
Statements” is used as an instrument to deny me due process of law and my right to free access to
the courts. I introduced evidence in the form of an Affidavit of Fact and marked as Evidence.
Someone in the courts tampered with that evidence, which is a Federal Violation, and
misrepresented it as a Motion which is discretionary and an assumption that permission must be
requested to exercise my Constitutional Rights and an exercise of a right is a Constitutional Right,
not a Request and this office knows that. This is a direct violation of my “Secured Constitutional
/ Treaty Rights which is the Supreme Law of the Land and “Stare Decisis” and a violation of your
“Oath of Office”. Furthermore as there is no law as prescribed in the United States Constitution
stating a “Financial Statement, “Financial Fee (Feudal Law)”, or a “Motion” requesting permission
must be submitted in order to exercise my Constitutional Rights, her demand is a violation of
Amendment IX of the United States Constitution and a violation of your fiduciary duties. Cynthia
J. Mills, ERS Disclosure Officer 1995 “ in regards to the fact that IRS is not Positive law, but is for
those who choose to subject themselves to it by voluntarily entering into an employee agreement.
Also on or around July 23, 2020 David J. Smith of the Eleventh Circuit of Appeals Issued the
Petitioner an order from the District of South Florida that does not allow the Petitioner to proceed
in forma Pauperis. Also on June 2,2020, Angela E. Noble, the clerk for the United States District
Southern District of Florida, Issued the Petitioner an Ordering and Designation of Reporter’s
Transcript [ Pursuant to FRAP 10 (b)]. That was an Unconstitutional Act. “An unconstitutional
Act is not law; it is in legal contemplation, as inoperative as though it had never been passed.

6.

“Norton vs Shelby County, 118 U.S. 425. On May 29,2020 Federico A. Moreno of the United
States District Southern District of Florida, denied and dismissed the Petitioner’s Complaint to
proceed in “forma pauperis.” Mark J. Baker denied a pay correction that Nicholas Johnson told
the Petitioner that he was entitled to. The Petitioner also inquired about his paying concerning a
top loader that he had operated as longshoremen and he wants to know the correct pay for that as
well; he would like to see it in writing. The Petitioner also had income taxes taken out of his pay
check and he would also like an explanation for that. “ Our tax system is based on individual selfassessment and voluntary compliance”- Mortimer Caplin, Internal Revenue Audit Manual (1976).
If found guilty Mark J. Baker is being sued for $100,000 for compensatory damages and $100,000
for punitive damages. TRIAL BY JURY OF MY OWN PEERS IS DEMANDED.

7.

REASONS FOR GRANTING THE PETITION

THE. TREATY OF PEACE AND FRIENDSHIP OF 1836 A.D. Between Morocco and the
United States
Article 20
“ If any of the Citizens of the United States, or any Persons under their Protection, shall have any
disputes with each other, the Consul shall decide between the Parties, and whenever the Consul
shall require any Aid or Assistance from our Government, to enforce his decisions, it shall be
immediately granted to him.”

Universal Declaration of Human Rights 1948
Article 3
Everyone has the Right to life, liberty, and security of persons.

Article 5
No one shall be subjected to torture or to cruel, inhumane or degrading treatment or punishment.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

uuS ~ (J?
Date:

VS/*'

